Department of Homeland Security
   Ofﬁce of Inspector General

            U.S. Citizenship and Immigration 

             Services Privacy Stewardship 





OIG-11-85                                        May 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                              Homeland
                                                              Security
                                     MAY 24 ZOH
                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (DIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the U.S. Citizenship and Immigration Services' plans and activities
to instill a privacy culture that protects sensitive personally identifiable information and
ensure compliance with federal privacy laws and regulations. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     ~LlI

                                     F~~er
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................4 


     USCIS Has Made Progress With Privacy Stewardship .................................................4 


     Privacy Risks to A-Files Need Mitigation .....................................................................7 

     Recommendations........................................................................................................10 

     Management Comments and OIG Analysis ................................................................11 


     Technical Risks to PII Need to Be Addressed .............................................................12 

     Recommendation .........................................................................................................13 

     Management Comments and OIG Analysis ................................................................14 


     Physical Security Standards Need Consistent Enforcement to Protect PII..................15 

     Recommendation .........................................................................................................16 

     Management Comments and OIG Analysis ................................................................16 


     Privacy Training and Awareness Need Improvement to Increase Effectiveness ........18 

     Recommendations........................................................................................................21

     Management Comments and OIG Analysis ................................................................21 


Figures
     Figure 1:             Purposes for Personally Identifiable Information in a 

                           Typical Day at USCIS ...........................................................................2 

     Figure 2:             Pillars of Privacy Stewardship ...............................................................3 

     Figure 3:             Stages of Processing Alien Registration Files Containing

                           Personally Identifiable Information .......................................................8 

     Figure 4:             Examples of Alien Registration Files ....................................................9 

     Figure 5:             Service Center Telework Participation/Monthly Missing

                           Alien Registration Files Rates in 2009 ..................................................9 

     Figure 6:             Examples of Controls for Physical Access ..........................................15 

     Figure 7:             Records Are People, People’s Lives ....................................................20 


Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................22 

     Appendix B: Management Comments to the Draft Report .......................................24 

     Appendix C: Legislation, Memoranda, Directives, and Guidance

                 Pertinent to the USCIS Privacy Stewardship Audit.............................31 

     Appendix D: Component Level Privacy Office Designation and Duties ..................33 

     Appendix E: USCIS Systems: Privacy Impact Assessments and 

                 System of Records Notices ..................................................................34 

  Appendix F: OIG Privacy Culture Survey ................................................................38 

  Appendix G: Major Contributors to this Report ........................................................40 

  Appendix H: Report Distribution ..............................................................................41 


Abbreviations
  A-File             Alien Registration File 

  DHS                Department of Homeland Security 

  FISMA              Federal Information Security Management Act of 2002
 

  MD                 Management Directive                

  OIG                Office of Inspector General 

  OMB                Office of Management and Budget 

  OSI                Office of Security and Integrity
 

  PII                Personally Identifiable Information 

  PIA                Privacy Impact Assessment 

  SORN               System of Records Notice 

  USCIS              U.S. Citizenship and Immigration Services 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 We performed an audit of U.S. Citizenship and Immigration
                 Services’ privacy stewardship. Our audit objectives were to
                 determine whether the plans and activities of U.S. Citizenship and
                 Immigration Services instill a culture of privacy and whether they
                 comply with federal privacy laws and regulations.

                 U.S. Citizenship and Immigration Services demonstrated an
                 organizational commitment to privacy stewardship by appointing a
                 privacy officer and establishing its Office of Privacy. The Office
                 of Privacy monitors compliance with federal privacy laws and
                 regulations and provides guidance to managers and employees on
                 meeting requirements for notice, incident reporting, and privacy
                 impact assessments. In addition, the Office of Privacy conducts
                 initial and annual privacy training and addresses inquiries and
                 complaints by individuals.

                 While U.S. Citizenship and Immigration Services has made
                 progress in implementing a privacy program that complies with
                 privacy laws, opportunities still exist to improve its privacy
                 culture. Specifically, management can improve the protection of
                 Alien Registration Files by conducting a privacy risk analysis on
                 telework and adjudication activities at service centers and field
                 offices. Also, technical vulnerabilities regarding removable data
                 devices, email, and system auditing and monitoring need to be
                 addressed. Further, physical security standards need to be
                 implemented consistently in all U.S. Citizenship and Immigration
                 Services facilities. Management must ensure that employees and
                 contractors are receiving mandatory privacy training, along with
                 appropriate job-specific, advanced, or specialized application of
                 privacy training and awareness. We are making six
                 recommendations to the Deputy Director of U.S. Citizenship and
                 Immigration Services to strengthen its culture of privacy.




              U.S. Citizenship and Immigration Services Privacy Stewardship 


                                         Page 1 

Background
                           U.S. Citizenship and Immigration Services (USCIS) is responsible
                           for granting immigration and citizenship benefits, promoting an
                           understanding of citizenship, and ensuring the integrity of our
                           immigration system. Interacting with the public in more than 250
                           offices around the world, almost 18,000 USCIS employees collect,
                           use, and disseminate personally identifiable information (PII). PII
                           refers to any information that permits the identity of an individual to
                           be directly or indirectly inferred, including any information that is or
                           can be linked to that individual, whether the individual is a U.S.
                           citizen, legal permanent resident, or a visitor to the United States.

                           USCIS’ main customers are immigrant and nonimmigrant applicants
                           or petitioners for benefits or services. Figure 1 lists purposes for
                           which USCIS collects PII from the public in a typical day.

                           Figure 1. Purposes for Personally Identifiable Information in a Typical
                           Day at USCIS
                               PURPOSES FOR PERSONALLY IDENTIFIABLE INFORMATION
                                           IN A TYPICAL DAY AT USCIS

                               �    Conduct 135,000 national security background checks
                               �    Complete 30,000 applications for various immigration benefits
                               �    Fingerprint and photograph 11,000 applicants
                               �    Process 3,700 applications to sponsor relatives and fiancées
                               �    Ensure employment eligibility of more than 80,000 new hires

                           Source: USCIS.


                           The Privacy Act of 1974, as amended, imposes requirements on
                           agencies whenever they collect, use, or disseminate PII in a system
                           of records. The Privacy Act grants access and amendment rights to
                           U.S. citizens and legal permanent residents. 1

                           As illustrated in Figure 2, our review of effective privacy
                           stewardship includes assessing 1) organizational commitment to
                           privacy, 2) privacy compliance management, 3) policies for proper
                           handling of PII, 4) privacy risk mitigation in operations, and 5)
                           privacy training and awareness.



1
  DHS Privacy Office, Policy Guidance Memorandum Number 2007-01: DHS Privacy Policy Regarding
Collection, Use, Retention, and Dissemination of Information on Non-U.S. Persons, extends privacy
protection to non-U.S. persons to have the right of access to their PII and the right to amend their records,
absent an exemption under the Privacy Act. However, this policy does not extend or create a right of
judicial review for non-U.S. persons.


                        U.S. Citizenship and Immigration Services Privacy Stewardship

                                                    Page 2
   Figure 2. Pillars of Privacy Stewardship




   Source: Office of Inspector General (OIG) analysis.


   A component’s culture of privacy results from how well its
   executive leadership, managers, and employees understand,
   implement, and enforce its privacy commitment. Privacy
   stewardship, or the promotion of an effective culture of privacy,
   leads to embedded shared attitudes, values, goals, and practices for
   complying with the requirements for proper handling of PII. A
   component privacy officer can help enhance the privacy culture by
   identifying privacy issues and working within the component to
   address them.




U.S. Citizenship and Immigration Services Privacy Stewardship 


                            Page 3 

Results of Audit
     USCIS Has Made Progress With Privacy Stewardship
          USCIS has made progress in promoting a culture of privacy across the
          agency. Specifically, it established an Office of Privacy in November
          2007 and designated a privacy officer who is responsible for performing
          certain duties, as required by the DHS Memorandum Designation of
          Component Privacy Officers, dated June 5, 2009. See Appendix D for a
          description of each specific duty.

                 USCIS Office of Privacy

                 The Privacy Officer reports to the USCIS Director’s Chief of Staff
                 and works collaboratively with the DHS Privacy Office by serving
                 as its point of contact and participating in its working groups. The
                 Office of Privacy consists of four staff members who perform the
                 following duties to improve the culture of privacy in USCIS:

                      �	 Advises USCIS leadership, management, and staff on
                         matters with privacy impact.
                      �	 Develops and issues DHS/USCIS privacy policy guidance.
                      �	 Provides advice and technical assistance in the
                         development of privacy compliance documentation.
                      �	 Manages PII incident response.
                      �	 Develops and administers privacy awareness training.

                 Initial and Annual Privacy Training

                 To comply with Office of Management and Budget (OMB)
                 M-07-16, Safeguarding Against and Responding to the Breach of
                 Personally Identifiable Information, USCIS provides initial
                 privacy training for new employees and annual refresher privacy
                 training for current employees. Throughout 2009 and 2010, the
                 Office of Privacy conducted 23 privacy training sessions at field
                 locations throughout the country. Also, the Office of Privacy
                 collaborated with the Office of Human Capital and Training to
                 monitor privacy training completion by the workforce. For
                 example, in FY 2009, USCIS reported that more than 95% of its
                 employees completed annual refresher privacy training.

                 Privacy Impact Assessments

                 The E-Government Act of 2002 requires agencies to conduct
                 Privacy Impact Assessments (PIAs) for information systems that


              U.S. Citizenship and Immigration Services Privacy Stewardship

                                         Page 4
                          collect, maintain, or disseminate PII. A PIA helps the public
                          understand what PII is being collected, why it is being collected,
                          and how it will be used, shared, accessed, and stored. As part of
                          preparing a PIA, the Office of Privacy helps managers to analyze
                          their use of proposed PII collections, as well as privacy risks and
                          their mitigation throughout the life cycle of a program or system.

                          USCIS has 34 PIAs that are approved by the DHS Privacy Office
                          and are available on its public website. See Appendix E for a list
                          and description of these PIAs.

                          Systems of Records Notices

                          The Privacy Act requires federal agencies to issue Systems of
                          Records Notices (SORNs) for every system of records under their
                          control that collects PII and from which information is retrieved by
                          an identifier. A system of records is a group of any records about
                          an individual under agency control from which information is
                          retrieved by that individual’s name, identifying number, symbol, or
                          other identifying particular assigned to the individual. The Office
                          of Privacy assists managers in determining whether they have a
                          system of records.

                          The SORNs are published in the Federal Register to explain to the
                          public the purpose for which PII is collected for a particular system
                          of records, from whom the information is collected, and what type
                          of PII is collected, how that information is shared externally, and
                          how the public can exercise rights granted through the Privacy Act
                          regarding the PII in a system of records. USCIS has 12 SORNs
                          and three exemptions that are approved by the DHS Privacy Office
                          and available on its public website. 2

                          Reporting Privacy Status and Incident Handling

                          The Federal Information Security Management Act of 2002
                          (FISMA) directs agencies to identify privacy risks intrinsic to their
                          systems, develop ways to mitigate those risks, and report results of
                          ongoing system assessments to OMB. The Office of Privacy
                          updates the status of privacy information required by FISMA.

                          The DHS Privacy Office Privacy Incident Handling Guidance
                          establishes responsibilities for the Office of Privacy to perform.

2
 The Privacy Act allows government agencies to exempt certain records from the access and amendment
provisions. If an agency claims an exemption, it must issue a Notice of Proposed Rulemaking to explain
why a particular exemption is claimed.


                      U.S. Citizenship and Immigration Services Privacy Stewardship

                                                 Page 5
   The Office of Privacy reviews suspected privacy incidents,
   determines whether the incidents relate to privacy, and if so,
   provides an analysis of ways to minimize the loss of privacy data.
   The office evaluates the reasonable risk of harm associated with
   the incident to the affected individuals, and issues notices to the
   affected individuals, if appropriate.

   Processes for Privacy Notice and Complaints for Individuals

   The Privacy Act requires agencies to provide notice to individuals
   prior to the collection of their PII, absent an exemption under the
   Privacy Act. The Office of Privacy assists managers with the
   drafting of notices on forms or websites.

   Section 803 of the Implementing Recommendations of the 9/11
   Commission Act of 2007 defines complaints as written allegations
   of harm or violation of privacy compliance requirements that may
   include requests for access, correction, and redress from
   individuals. Complaints may be filed with the DHS Privacy Office
   or USCIS. USCIS has processes to receive privacy complaints or
   requests for access, correction, and redress from individuals.
   Individuals may file complaints through the Ombudsman Office or
   specific program offices, such as the Verification Division. The
   Office of Privacy reviews all pertinent privacy issues.

   Section 803 of the Implementing Recommendations of the 9/11
   Commission Act of 2007 also establishes additional privacy
   reporting requirements for complaints regarding DHS. In July
   2010, the Office of Privacy implemented a system to track and
   resolve privacy complaints and requests for access, correction, and
   redress. The DHS Privacy Office public website contains
   information on USCIS and other component privacy complaints.




U.S. Citizenship and Immigration Services Privacy Stewardship 


                           Page 6 

         Privacy Risks to A-Files Need Mitigation
                  USCIS has not identified ways to mitigate privacy risks when transporting
                  PII, primarily contained in Alien Registration Files (A-Files). First,
                  USCIS does not have PIAs that identify vulnerabilities and establish ways
                  to protect A-Files when they are physically moved from one operation to
                  another or transported among USCIS facilities. Second, USCIS has not
                  provided rules of conduct, as required by the Privacy Act, for handling PII
                  during telework.

                           Protecting A-Files at Facilities

                           USCIS has not performed PIAs to identify privacy threats and
                           ways to mitigate them at service centers and field offices,
                           particularly when A-Files are physically moved from one operation
                           to another or transported among USCIS facilities. The PIA
                           process includes reviewing applicable privacy policies, identifying
                           specific privacy vulnerabilities, and determining ways to mitigate
                           risks at service centers and field offices.

                           Existing PIAs on USCIS information technology systems that
                           contain PII do not adequately address risks when employees
                           handle A-Files to process immigration benefits and services.
                           According to DHS Privacy Office Policy Guidance Memorandum
                           2008-02, PIAs should be conducted for programs, activities,
                           technologies, and rulemakings, regardless of their type or
                           classification, to ensure that privacy considerations and protections
                           are incorporated into all activities of the Department. PIAs on
                           activities that raise privacy concerns related to the use of PII will
                           ensure greater transparency and help build trust in DHS operations.

                           A PIA on A-File processing will provide the public with a
                           comprehensive view of the integration of privacy in operations and
                           how privacy concerns have been addressed through USCIS
                           implementation of privacy controls. USCIS Management
                           Directive (MD) 140-001, Handling Sensitive and Non-Sensitive
                           Personally Identifiable Information, requires its employees to
                           maintain control over files containing PII. However, during a
                           2-year period (2008 and 2009), USCIS reported that more than a
                           third (37%) of privacy incidents involved employees’ lack of
                           control over A-Files as they pass to subsequent operations or
                           during transportation to other locations. 3 In 2009, management
3
  The remaining incidents involved information technology issues, such as improper handling of emails
containing PII, the loss of removable data devices containing PII, or mailing files to the wrong recipient or
facility (109 of 173 incidents, 63%).


                       U.S. Citizenship and Immigration Services Privacy Stewardship

                                                   Page 7
   reported a monthly average of 257,000 missing A-Files in all
   facilities.

   Improved privacy controls at USCIS facilities will help mitigate
   the privacy risks that exist as employees handle A-Files to
   adjudicate benefits and provide services. For example, the four
   service centers in California, Nebraska, Texas, and Vermont
   consist of 10 different facilities. Each service center consists of
   one to four buildings that are located up to 30 miles away from
   each other. Therefore, within a single service center, employees
   may move A-Files to different locations as often as 10 times to
   receive inbound A-Files, temporarily store A-Files, conduct
   background checks, adjudicate benefits, prepare outbound A-Files,
   and load A-Files on and off of docks. Figure 3 shows how large
   volumes of files are handled daily to complete the processing of a
   particular service or benefit.
   Figure 3. Stages of Processing Alien Registration Files Containing
   Personally Identifiable Information




   Source: OIG.


   Senior leadership and operations managers have the overall
   responsibility to ensure that USCIS protects privacy and are
   accountable for PII contained in A-Files at their service centers and
   field offices. Until managers assess the processes, flow, and
   handling of A-Files during specific high-risk operations at facilities,
   USCIS will continue to expose PII to unmitigated privacy risks.

   Telework Needs Specific Privacy Rules of Conduct

   USCIS faces challenges in protecting PII that is processed by
   teleworking employees. Specifically, USCIS has not provided
   specific instructions, including privacy rules of conduct that are
   related to handling PII during telework. Presently, the USCIS
   Telework Instruction Handbook (USCIS IHB 123-001) requires
   teleworkers to ensure that their activities and business processes at
   the telecommuting site replicate office practices and safeguards
   that comply with DHS guidance. Presently, USCIS guidance does
   not provide specific rules of conduct related to the unique risks to
   handling PII during telework.



U.S. Citizenship and Immigration Services Privacy Stewardship

                           Page 8
   The USCIS program has unique challenges because adjudicators
   who telework must transport extensive amounts of paper A-Files
   with them to telework sites. The adjudication of benefits requires
   the review of multiple folders related to the same applicant that can
   be several feet thick. The contents of an A-File may range from a
   single page to hundreds of pages that document the history of
   interaction between USCIS and the applicant. A-Files may include
   PII, such as submitted benefits and naturalization forms, dates of
   birth, photographs, fingerprints, and correspondence from family
   members or third-party sponsors.

   On average, an adjudicator at a service center who teleworks four
   days per week will transport about 2,000 A-Files a year between
   the office and the telework site. Because the service centers have
   more than 2,000 adjudicators who are eligible for telework, it is
   possible that 4 million A-Files will be transported by personal
   vehicle each year. Figure 4 illustrates the size of A-Files that
   teleworkers can typically transport.
   Figure 4. Examples of Alien Registration Files




   Source: OIG.


   Missing files are identified in a monthly report that also shows the
   number of missing files per facility. In 2009, the four service
   centers averaged more than 27,000 missing A-Files each month by
   on-site employees and teleworkers. Figure 5 lists the number and
   percentage of missing A-Files at each of the four service centers
   and the respective telework participation rates. The two service
   centers with the highest telework participation rates (24% Texas,
   23% Vermont) have 71% (39% Vermont, 32% Texas) of the total
   missing A-Files.

   Figure 5. Service Center Telework Participation/Monthly Missing Alien
   Registration Files Rates in 2009
                  MISSING A-FILES BY SERVICE CENTERS
                                 Avg #/ % of                 Telework
       Service Center
                                 Missing Files           Participation Rate
    California                   3,328 (12%)                      7%
    Nebraska                     4,608 (17%)                      17%
    Vermont                      10,474 (39%)                     23%




U.S. Citizenship and Immigration Services Privacy Stewardship 


                           Page 9
 

                    MISSING A-FILES BY SERVICE CENTERS
                                   Avg #/ % of                  Telework
         Service Center
                                   Missing Files            Participation Rate
      Texas                         8,713 (32%)                    24%
      Total                       27,123 (100%)
     Source: OIG analysis of monthly USCIS missing files reports in 2009/Telework
     participation rates.


     Greater telework participation increases the risks to PII because
     teleworkers are transporting more A-Files to additional locations
     than if the A-Files were processed at the office. However, the
     Telework Instruction Handbook does not provide specific privacy
     rules of conduct related to telework that could prevent the loss or
     unauthorized exposure of the content of A-Files. For example, the
     handbook does not include a procedure on how to secure or
     recover A-Files prior to and after a car accident while
     telecommuting. As a result, there have been incidents when
     documents containing PII were exposed. For example, a
     teleworker was incapacitated following an automobile accident and
     unable to protect the PII being transported in the car. In another
     incident, containers that held A-Files were so damaged by the
     force of the collision that the files scattered out of the car and
     across the highway.

     If USCIS develops guidance on specific ways to apply privacy
     rules of conduct for adjudicators who telework that are consistent
     with DHS Privacy Office Handbook for Safeguarding Sensitive
     Personally Identifiable Information, then risks to PII during
     telework may be mitigated. Without privacy rules of conduct for
     teleworkers, employees have insufficient guidance to replicate
     office practices and safeguards while telecommuting.

Recommendations
     We recommend that the Deputy Director of USCIS:

     Recommendation #1: Identify vulnerabilities and ways to
     mitigate privacy risks to A-Files by conducting privacy impact
     assessments for high-risk operations at service centers and other
     field facilities.

     Recommendation #2: Issue privacy rules of conduct for
     teleworkers, consistent with DHS Privacy Office Handbook for
     Safeguarding Sensitive Personally Identifiable Information.




  U.S. Citizenship and Immigration Services Privacy Stewardship

                             Page 10
Management Comments and OIG Analysis
     We obtained written comments on a draft of this report from the
     Deputy Director of USCIS. A copy of the comments is in
     Appendix B.

     USCIS concurred with our findings and recommendations.
     Concerning recommendation #1, USCIS is convening an internal
     working group, led by the Privacy Officer, with appropriate cross-
     representation of agency operations to prepare a plan of action to
     mitigate identified weaknesses within 90 days of the findings.
     Specifically, the working group will focus on privacy stewardship,
     review all aspects of A-File processing, ensure that file
     management achieves full privacy compliance, identify and
     implement business process improvements, and create and oversee
     implementation of pertinent guidelines and training. In addition,
     the Records Operations Handbook/Mail Room Operations will be
     reviewed to ensure consistency with the DHS Privacy Office
     Handbook for Safeguarding Sensitive Personally Identifiable
     Information, and the Office of Security and Integrity/Internal
     Review Division will update its internal review questionnaire to
     evaluate compliance with privacy standards. We consider
     recommendation #1 open, pending our review of documentation
     that establishes the working group, describes privacy-related plans
     of action and milestones, and amends USCIS handbooks and the
     internal compliance questionnaire.

     USCIS concurs with recommendation #2. Within 60 days after
     agreement with the American Federation of Government
     Employees, USCIS indicated that it will insert appropriate privacy
     language, consistent with DHS Handbook for Safeguarding
     Sensitive Personally Identifiable Information and DHS 4300A, into
     its Telework Management Directive and Telework Handbook to
     ensure that staff are aware of their responsibilities. We consider
     recommendation #2 open, pending our review of documentation
     regarding such amendments.




  U.S. Citizenship and Immigration Services Privacy Stewardship 


                             Page 11 

        Technical Risks to PII Need to Be Addressed
                 USCIS has unresolved technical weaknesses that leave PII unprotected in
                 information systems. Specifically, USCIS does not protect PII that is
                 stored on removable data devices adequately. In addition, PII that is sent
                 via email needs better protection. Further, USCIS needs to use system
                 auditing and monitoring to ensure compliance with privacy protection
                 requirements.

                          Safeguarding Removable Data Devices

                          USCIS needs to ensure that PII is being protected appropriately
                          when saved on removable data devices. USCIS MD 140-001
                          prohibits the use of unauthorized removable data devices, such as
                          thumb drives and laptops. According to information security
                          managers at headquarters, they have the ability to detect and
                          disable unauthorized removable data devices on its network.
                          However, information security managers told us that USCIS is not
                          using the detection application because it cannot differentiate
                          devices attached to the network. Instead, the application will
                          disable all attached devices on the network. Further, our testing at
                          several workstations that contained PII at different facilities
                          indicated that the safeguards were not functioning. We were able
                          to connect and use several unauthorized removable data devices.

                          In addition, USCIS needs to improve the use of encryption to
                          protect PII on removable data devices, as required by OMB M-07­
                          16. 4 For example, one of the systems we reviewed, the Customer
                          Profile Management System, does not encrypt applicant
                          information before it is transferred to removable data devices.
                          Further, USCIS reported privacy incidents, such as when an
                          employee lost an unencrypted government thumb drive containing
                          PII at a public airport. A civilian recovered and returned the
                          thumb drive to USCIS. Because the data on the thumb drive were
                          unencrypted, anyone could access the PII contained on the device.

                          Information security managers told us that USCIS is looking into
                          possible solutions to track all removable data devices and to
                          standardize encryption on these devices. Until these solutions are
                          implemented, PII being stored on removable data devices will
                          remain vulnerable to unauthorized disclosure.



4
 Encryption is the process of using algorithmic schemes that encode plain text into nonreadable form or
cyphertext, providing privacy and security of information.


                       U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                  Page 12 

                           PII in Emails

                           USCIS employees need to ensure that PII is protected adequately
                           when transmitting it via email. According to DHS Sensitive
                           Systems Policy Handbook 4300A, components must consider
                           encryption technologies to protect PII when transmitting it via
                           email. Generally, USCIS employees use various methods to
                           protect PII, such as using a password to protect an email
                           attachment or public key infrastructure, if available. 5 However,
                           privacy incidents have occurred because these methods have not
                           been used consistently. USCIS reported privacy incidents
                           involving employees who have sent unencrypted emails that
                           contain PII to recipients outside of DHS. During a 2-year period
                           (2008 and 2009), USCIS reported that 71 (41%) of 173 privacy
                           incidents involved unencrypted emails containing PII. 6

                           System Auditing and Monitoring

                           USCIS does not employ auditing and monitoring of systems
                           containing PII to ensure compliance with applicable privacy
                           protection requirements. The DHS Privacy Office Privacy
                           Technology Implementation Guide recommends that components
                           audit the actual use of PII and monitor any system with PII.
                           USCIS information security managers told us that existing systems
                           have technical limitations that make auditing and system
                           monitoring not feasible. Instead, they plan to replace existing
                           systems and software with ones that will have auditing and system
                           monitoring capabilities. Meanwhile, important case management
                           systems—such as USCIS Benefits Processing of Applicants other
                           than Petitions for Naturalization, Refugee Status, and Asylum and
                           USCIS Computer Linked Application Information Management
                           System—do not use system auditing and monitoring. See
                           Appendix E for types of PII maintained within these systems.

                  Recommendation
                           We recommend that the Deputy Director of USCIS:

                           Recommendation #3: Develop plans and milestones for
                           mitigating the technical weaknesses in PII systems regarding


5
  Public key infrastructure is the combination of software, encryption technologies, and services that
enables enterprises to protect the security of their communications and business transactions on networks.
6
  The remaining incidents involved employees not maintaining control of paper PII files during
transportation or employees mailing files to the wrong facility or recipient (80 incidents, 46%) or the loss
of removable data devices containing PII (22 incidents, 13%).


                       U.S. Citizenship and Immigration Services Privacy Stewardship

                                                   Page 13
     removable data devices, encryption, and system auditing and
     monitoring.

Management Comments and OIG Analysis
     USCIS concurs with recommendation #3. The USCIS Chief
     Information Security Officer has issued written guidance on using
     or transporting sensitive information in portable storage devices
     and is working with USCIS Office of Contracting, USCIS Office
     of Administration’s Asset Management Branch, and DHS
     Efficiency Review Board regarding statements, policies, and
     tracking of authorized encrypted universal serial bus devices. In
     the interim, USCIS is researching capabilities to disable use of
     nonauthorized universal serial bus devices on the network and
     working with the USCIS Office of Contracting to prevent
     government purchases of nonauthorized thumb drives. The Chief
     Information Security Officer will be overseeing full
     implementation of public key infrastructure by September 2012.
     In the interim, users are to follow instructions on the agency’s
     Intranet on using WinZip to password protect or encrypt emails
     and attachments. In addition, USCIS plans to issue a policy on
     audit and accountability, and implement efforts regarding network
     monitoring, performance testing, and storing audit logs. We
     consider recommendation #3 open, pending our review of
     documentation of such efforts.




  U.S. Citizenship and Immigration Services Privacy Stewardship 


                             Page 14 

Physical Security Standards Need Consistent Enforcement to
Protect PII
     USCIS employees handle large volumes of PII and often face challenges
     when safeguarding paper-based PII files and other sensitive information.
     Physical security addresses perimeter, exterior, and interior measures for
     securing and protecting PII. These measures should protect buildings and
     related infrastructure against threats from various sources. However,
     USCIS has not implemented physical security standards consistently at its
     facilities to protect PII and other sensitive information.

     The Privacy Act requires agencies to establish physical safeguards to
     protect PII. The DHS Privacy Office Handbook for Safeguarding
     Sensitive Personally Identifiable Information provides guidelines on how
     to protect PII in different physical environments, contexts, and formats,
     and what to do if PII may have been compromised. Further, according to
     National Institute of Standards and Technology Special Publication
     800-12, An Introduction to Computer Security, physical security involves
     access controls that restrict entry and exit of personnel and barriers to
     isolate areas. Access controls include card key readers, turnstiles,
     closed-circuit television cameras, motion and intrusion detection, security
     lighting, perimeter fencing, and contingency planning. Figure 6 shows
     examples of controls for physical access.

     Figure 6. Examples of Controls for Physical Access




     Source: OIG.


     In 2008, USCIS established a physical security division to address
     physical safeguards for 249 facilities worldwide to ensure consistency in
     the application of physical safeguards at each facility. In June 2010,
     USCIS finalized and posted Facility Security Standards on its Intranet site
     with minimum requirements to protect personnel, property, and assets at
     all facilities. Our inspections of 22 facilities determined that physical
     security standards are not consistent with the Facility Security Standards.
     According to officials from the Office of Security and Integrity (OSI) at
     USCIS headquarters, many facilities are trying to implement the new


          U.S. Citizenship and Immigration Services Privacy Stewardship

                                    Page 15
physical security standards. OSI has issued a checklist that facilities can
use to self-certify compliance with the standards, but many facilities have
not filled existing staff vacancies for their security managers to implement
the standards. Although OSI staffs are aware that similarly functioning
facilities have inconsistently implemented the standards, it has not
established how it will verify that standards were implemented properly in
each USCIS facility.

Further, our site inspections revealed inconsistencies with the
implementation of standards for access controls (e.g., card key readers,
closed-circuit television, security lighting, perimeter fencing, restricted
parking, contingency planning) used to identify, track, or record
authorized personnel, entry, or exit in areas where PII is being transported,
handled, or stored. For example:

   �	 Recording length of closed-circuit television tapes. The
      standard requires that closed-circuit television tape recordings be
      maintained for a minimum of 30 days. However, at several
      facilities that we inspected, physical security managers maintained
      tape recordings from 19 days to 60 days.
   �	 Existence of contingency plans. The standard requires facilities to
      maintain contingency plans to ensure continuity of operations.
      However, according to physical security managers, several facilities
      either do not have contingency plans or have incomplete plans.

USCIS needs to enforce the consistent implementation of physical security
standards to protect PII files throughout its facilities. Inconsistencies in
the implementation of standards can result in the loss or disclosure of PII
and other sensitive information.

Recommendation
       We recommend that the Deputy Director of USCIS:

       Recommendation #4: Enforce the consistent implementation of
       physical security standards.

Management Comments and OIG Analysis
       USCIS concurs with recommendation #4. USCIS OSI created a
       multiyear strategy to update USCIS access control and closed-
       circuit television systems nationwide. USCIS is assessing physical
       security countermeasures and policies to protect personnel,
       property, and assets at headquarters offices adequately. By the end
       of FY 2011, USCIS plans to address security countermeasures at


    U.S. Citizenship and Immigration Services Privacy Stewardship

                              Page 16
   field offices and service centers. In addition, to promote consistent
   access control policy and procedures at USCIS-controlled space
   and aid implementation across the enterprise, OSI plans to
   disseminate its draft instructional handbook for review and
   comment by the end of FY 2011. We consider recommendation #4
   open, pending our review of documentation from such efforts.




U.S. Citizenship and Immigration Services Privacy Stewardship 


                           Page 17 

Privacy Training and Awareness Need Improvement to Increase
Effectiveness
     The Privacy Act requires agencies to establish appropriate administrative
     safeguards to protect PII. These safeguards include privacy training and
     awareness activities. Although USCIS provides required annual refresher
     privacy training, manager and employee recommendations indicate that
     improvements are needed.

     We conducted a survey of USCIS privacy culture and solicited opinions
     on how its workforce could improve their understanding of privacy. See
     Appendix F for survey methodology and results. Sixty-two percent
     (2,179) of 3,497 written comments by survey respondents related to
     improvements to privacy training and awareness.

            Add Job-Specific, Advanced, or Specialized Privacy Training

            OMB M-07-16 requires that privacy-related communications and
            training be related more specifically to the jobs that employees
            perform. In addition, OMB promotes advanced or specialized
            training to improve employees’ understanding of their privacy
            responsibilities in their daily work activities. However, USCIS
            does not have standardized job-specific, advanced, or specialized
            privacy training programs to meet the needs of employees.

            Overall, survey respondents who provided written comments
            related to improving job-specific, advanced, or specialized training
            also offered suggestions on how USCIS could implement privacy
            safeguards into their daily work. Most suggestions are related to
            the following five categories 1) developing more training that
            incorporates privacy on-the-job, 2) integrating more real-world
            examples where privacy safeguards could be applied,
            3) embedding privacy into standard operating procedures,
            4) holding more staff briefings on privacy, and 5) increasing
            opportunities for peer discussions and supervisor mentoring on
            privacy.

            Managers recognize the importance of embedding privacy
            safeguards in daily work, but they have not assessed their needs or
            approaches for more job-specific privacy awareness, procedures, or
            training with their employees. The Office of Privacy recognizes the
            importance of having job-specific, advanced, and specialized
            privacy training programs. However, it does not have sufficient
            resources to identify the specific requirements and needs for



         U.S. Citizenship and Immigration Services Privacy Stewardship

                                   Page 18
   additional training related to the variety of job operations performed
   by employees.

   Implementing the recommendations of managers and employees
   for job-specific or advanced privacy training can increase the
   effectiveness of annual privacy training. Specifically, employees
   will be able to apply broader privacy concepts to their specific
   jobs. To improve privacy implementation, USCIS will need a
   collaborative effort among operational managers, supervisors, and
   program-level experts with assistance from the Office of Privacy to
   identify requirements for job-specific privacy training. Without a
   collaborative effort to leverage the limited time and resources of
   each group in addressing similar needs, employees may interpret or
   apply privacy protections inconsistently.

   Increase Frequency and Vary Methods for Additional Privacy
   Training

   The DHS Privacy Office Guide to Implementing Privacy
   recommends that components employ different methods to deliver
   privacy training. Also, survey respondents recommended that
   USCIS increase frequency and vary the methods of delivering
   additional privacy training through the use of videos,
   videoconferencing, teleconferencing, and simulations.

   USCIS deploys primarily an online computer course for annual
   privacy training because USCIS has a diverse workforce spread
   across 250 offices around the world. Although the Office of Privacy
   provides some instructor-led training for smaller groups at specific
   locations, this office does not have adequate resources to expand
   training or employ additional technology to improve the nature and
   methods of training. However, we observed that some facilities had
   the capability to use technological enhancements, such as
   broadcasting in-person training using videoconferencing. Without
   varying the approach, delivery, and frequency of privacy training,
   USCIS will not be able to communicate important and timely
   information to employees in a more meaningful format and
   approach.

   Increase Privacy Awareness Activities

   OMB M-07-16 recommends that agencies should augment privacy
   training by using creative methods to promote daily awareness of
   the employees’ privacy responsibilities. However, according to
   managers and employees whom we interviewed, USCIS could


U.S. Citizenship and Immigration Services Privacy Stewardship

                          Page 19
   improve and increase privacy awareness. Survey respondents
   suggested specific privacy awareness activities. Examples include
   weekly privacy tips, privacy email reminders, flyers, banners,
   wallet-sized cards, and posters.

   Figure 7 illustrates posters that heighten the workforce’s awareness
   that records represent people’s lives and contain personal and
   confidential information. Similar posters can remind employees
   about the importance of safeguarding privacy in their daily work.

   Figure 7. Records Are People, People’s Lives




   Source: USCIS Records Division.


   Require Privacy Training for Contractors

   The DHS Privacy Office Handbook for Safeguarding Sensitive
   Personally Identifiable Information and Privacy Incident Handling
   Guidance establish privacy responsibilities for both DHS
   employees and contractors. USCIS MD 140-001 also requires
   employees and contractors to complete annual privacy training.

   USCIS relies on contractors to assist with operations that require the
   handling of PII, such as file room operations, data entry, and
   information technology help desk. Although contractors comprise
   about 40% of the USCIS workforce, existing contracts do not
   contain requirements for contractor staff to complete annual privacy
   training. According to USCIS, the intent of these contracts was to
   maximize productivity. Therefore, they did not consider adding a
   privacy training requirement to the contractors’ scope of work that
   would allocate time for training in lieu of production work.




U.S. Citizenship and Immigration Services Privacy Stewardship 


                           Page 20 

     Presently, the Office of Privacy, the Office of Contracting, and the
     General Counsel are planning to develop privacy training clauses
     for use in contracts. Without these clauses, USCIS is unable to
     require contractors to take privacy training. By not enforcing
     privacy training for these contractors, USCIS is exposing the
     public’s PII to unnecessary risks.

Recommendations
     We recommend that the Chief Privacy Officer of USCIS:

     Recommendation #5: Implement employee recommendations
     into plans for privacy training and awareness.

     We recommend that the Deputy Director of USCIS:

     Recommendation #6: Establish a working group to develop a
     standardized process to ensure that privacy training clauses are
     inserted and enforced in contracts related to the handling or
     maintenance of PII.

Management Comments and OIG Analysis
     USCIS concurs with recommendation #5. USCIS has integrated
     privacy awareness information in current computer security
     training that emphasizes that all personnel must be able to identify
     PII and know proper handling guidelines. In addition, USCIS
     plans to deploy customized privacy training modules for all
     employees and contractors about 1) privacy fundamentals for the
     general workforce and 2) targeted training for PII handlers. Also,
     USCIS scheduled a Privacy Awareness Week that included privacy
     awareness-building activities, guest speakers, privacy training, and
     the introduction of a series of one-minute training videos on
     privacy issues. We consider recommendation #5 open, pending
     our review of documentation from such efforts.

     USCIS concurs with recommendation #6. Through an established
     working group consisting of the Offices of Privacy, Chief Counsel,
     and Contracting, USCIS has finalized clauses that mandate PII
     training for contractors. In addition, USCIS has drafted statements
     of work for privacy review and determination related to 85 existing
     contracts and as part of a mandatory privacy review by its Privacy
     Officer on all new acquisitions over $100,000. We consider
     recommendation #6 open, pending our review of documentation of
     such efforts.


  U.S. Citizenship and Immigration Services Privacy Stewardship

                            Page 21
Appendix A
Purpose, Scope, and Methodology

                   Our objectives were to determine whether plans and activities at
                   USCIS instill and promote a privacy culture and whether it complies
                   with federal privacy laws and regulations. As background for this
                   audit, we researched federal laws and guidance related to
                   responsibilities for privacy protections at USCIS. We reviewed
                   testimonies, documentation, and reports related to USCIS privacy,
                   information technology security, and program management.

                   We interviewed officials from the DHS Privacy Office, USCIS
                   Office of Privacy, Service Center Operations Directorate, Field
                   Operations Directorate, Refugee, Asylum, and International
                   Operations Directorate, Fraud Detection and National Security
                   Directorate, Customer Service Directorate, Enterprise Services
                   Directorate, Office of Transformation Coordination, and
                   Management Directorate. We interviewed more than 150 program
                   managers, information system, and facility security professionals
                   at headquarters and field sites regarding privacy activities. More
                   than 5,600 federal employees responded to our Privacy Culture
                   survey regarding their opinions on privacy stewardship and
                   knowledge of the Privacy Act of 1974, PII handling, and privacy
                   incident response. Of these respondents, 3,497 offered written
                   comments and suggestions on the status, issues, or challenges in
                   privacy stewardship. (See Appendix F.)

                   We reviewed work production plans, continuity of operations
                   plans, system security documentation, privacy impact assessments,
                   system of records notices, and program-level application of federal
                   privacy laws and guidance. We observed the processes and
                   inspected 22 facilities for the collection, handling, processing,
                   maintenance, and storage of PII. Facilities included the four
                   service centers, National Benefit Center, National Records Center,
                   Western Telephone Center, regional offices, field offices, asylum
                   offices, and application support centers.

                   We conducted this performance audit between June and December
                   2010 pursuant to the Inspector General Act of 1978, as amended,
                   and according to generally accepted government auditing
                   standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based upon our
                   audit objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives.



                U.S. Citizenship and Immigration Services Privacy Stewardship

                                          Page 22
Appendix A
Purpose, Scope, and Methodology

                   The principal OIG points of contact for the audit are Frank Deffer,
                   Assistant Inspector General, Information Technology Audits, and
                   Marj Leaming, Director, System Privacy Division, at (202) 254­
                   4100. Major OIG contributors to the audit are identified in
                   Appendix G.




                U.S. Citizenship and Immigration Services Privacy Stewardship 


                                           Page 23 

Appendix B
Management Comments to the Draft Report


                                                                           1l.5.1kJowl....., .1' "._"" ScnrllJ'
                                                                           us. CUaIIloip end ' - . . .. . s.m­
                                                                           OJIfa.dN nu-(M$ lllOll)
                                                                           W......... OC 2OS29-2OOO

                                                                           lLS.CitizensbJp
                                                                           and Immlgranon
                                                                           Services
        APR 29 lOll

        Memorandum
        TO:           Frank Deffer
                      Assisl:ant lnspoctor General, lnimnation Technology Audia

        FROM:         Lauren Kie1smeier r J  1(, . fJ.J1 ,.,,:        --
                      Actina Deputy   D~~~mmigTUionServices
        SUBJECT:      usas Response to OIG RecoounematioDS re USCiS Primcy Sle'Warrisllip - For
                      OffICial Use Only
                      O/G Projut No. 10-144-/TA-USCIS

        USCIS appreciates the opporttmity to review and comment on lhe subject report.

        R~ramtDdadoD IH:       lde:atify vulDtnbiUti" and way' to mldptt privacy risks to A-fl!o
        by conducting privacy implct IJJeSsmenls for blgb risk operations It service ctnttrs and
        other fidd activities.

        USCIS'. Response: uscrs concurs with this reoommendation. The report notes tha1 during lhe
        period of review (2008 and 2(09) 31% of privacy incidents involved employees' lack ofcontrol
        over A-files as the files passed througb subsequent operations or during transport. USClS's
        current operations require the creation and use of paper Alien Registration Files (referred to as
        A-files) throughout the adjudication process. The files are manually transported to various
        offices depending on the level and extent ofadjudication required. The USCIS Office of Privacy
        notes that the majority of the incidents cited in the report were the result ofexternal errors
        outside the control of uscIS employees (e.g., courier incidents). However, any privacy incident
        is unacceplable and uscrs recognizes the need to implement processes and procedures to
        minimize the possibility ofsuch incidents occurring. The following paragraphs discuss the
        actions taken to address this reoonunendation.

        USCIS will establish a working group led by the Privacy Officer and consisting of
        representatives from USCIS Programs and Directorates to review the handling and movement of
        A-files across the agency. The working group will review all aspects of file processing at uscrs
        to ensure full compliance with all pertinent regulations that addtess file management.
        Additionally, the group will focus on Privacy Stewardship. The working group will identifY and
        implement improvements in business processes and oversee the refinement, creation and
        dissemination (to include training) of implementing guidelines and directives to ill uscrs
        personnel.




                                           - For Official Use Only-




                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                    Page 24
 

Appendix B
Management Comments to the Draft Report




                                             - For Official Use Only·
        USCIS Response to OIG Rec:ommendal:iollS re USCIS Privacy Stewardship - For Ojficwl U$~
        Only/OIG Project No. JO-U4-ITA.-USCIS
        -..."

        At preseol, lhe Reoords Operations Handbook (ROO) desc:nba Mail Room Operations at USCIS
        (ie., bow files lII'e received and moved at USCIS). in addition to lhc creation, storage, and
        traekiDg ofall files. The ROH is an enduring handbook that is regularly reviewed 10 ensure
        accurac:y and consistency with operational procedures. The ROH will be filrth£r reviewed and
        amended to ensure it discusses policy and provick:s guidance consW.CllI with lhc DHS Handbook
        ilr Safeguarding Sensitive Personally IdClllifiable lni)rmatioo (PD).

        In 2007. !he USCIS Office of Security and Integri!:y (OS1). 10lema! Review Division dl:Ydopa:l.
        an internal re'Vic:w questionnaire to evaluate !he Records Program lit USCIS file control offices.
        OSI works with lhc Records Division to ensure that !he questionnaire is updated on a regular
        basis to rcflcd c:urrcot records policy. OSI will update lhc questionnaire to ensure that in the
        future we evahwe compliance with privacy standards. This process will help USCIS detcnnioe
        internal weaknesses and filcilitate a process to mitigate those wea1cDcssc:s via training and policy
        clw>.~

        As pan ofits TransfOrmatioo Program, USCIS is further mitigating lh.is risk by transitiooing to
        lhc Integrated Opcraring Environment OOE). In lhc IOE, USCIS will nol have 10 physically
        lransport the files between facilities, because the relevant files will be available through lhc
        IOE's secure online environmeot. As lhc IOE is implemented, lhc number of files requiring
        physical transport will gradually decrease, because new benefit seekers will only have online
        files. USCIS employees (incluiling tbose 00 leltwork) will simply 'og in 10 the IOE, rather than
        carrying files to and from their homes.

        USCIS believes an ahcrnalive approach to conducting privacy impaet assessments shoukl be
        utilized in identifying and assessing high risk operations at service centers and other field
        activities. USCIS recommends convening an internal working group with appropriate cross-­
        representation from agency operations as a more feasible approach. USCIS Executive
        Leadership would establish the working group to identify potential weaknesses and establish a
        plan ofaetion and milestones for mitigating the findings. USCIS anticipates establishing a
        working group within 90 days ofthis response. USCIS also plans to identify weaknesses and
        potential mitigation to each weakness, 90 days from the findings.

        R~OlDmendation    #2: Issue privacy rules of conduct for teleworkers, consistent with DRS
        Privacy Office: Handbook for Safeguarding Sensitive PenonaUy Idenllfiable Information.

        uscrs's response: USCIS amcurs with this recommendation. The 010 review identifies the
        unique challenges to privacy stewardship with respect to Telework and lOcusc::s on USClS
        Service Centers; however, it shoukl be noled at the time DHS (and USCIS) was established in
        2003, lelcwork was already in place as a pi'ot program at lhc USCIS Service Centeno The
        removal ofA-files to ahcmate worlcsites was an established work practice al USCIS Service
        Centers. The USCIS Telcwork MD was actually finalized in January 2009 after USCIS
        co"1'lcled its negotiations with lhc American Federation ofGovcmmcn! Emp'oyees (MOE).
        USCIS will insert lhc appropriate language in lhc Telework MD to ensure staffis awllI'e of their


                                             - For Official Use Only.




                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                      Page 25
 

Appendix B
Management Comments to the Draft Report




                                            - For Official Use Only-
         USCIS Response to DIG Recormnendal:ions re USClS Privacy Stewardship - For OffICial Use
         OnlyIOJG Proj«:t No. J(J.U4-ITA-USaS
         Page 3

         responsibility to properly seo::ure and protect PD .. aU times. The Telcwork MD revision will
         ensure usas' Telcwork Program conbrms to the "DHS Handbook i>r Safcguaniiog Sensitive
         PU" and DHS DP.:tivc 4300A, "Sensitive Systems Policy." Once the revised MD is prepared,
         USCIS will work with AFGE to obtain their agrcc:mcnt on the revisions. USCS will also amend
         its Telcwork HaDdbook to msurc coosisl:mcy wilh USCIS MD and the DHS handbook. The
         amcodmcnt to the Teicwork MD will be aeoo~\jshcd within 60 days der an tgrttmCDI is
         reached with the Bargaining Unit.

        Once USCIS deploys the IDE, tbc Deed hr tclcwork pc:rsoooci to transpOrt filc:s will gradually
        diminish. The IDE's collabol1l1ive refemI and case management capabilities will provide a
        secure ahcmativc to cmailing PU.

        Recommendation 1#3: Develop plaOJ and milestODCI for mitigatlog the technical
        lIt·takoenu lo PO systems regllrding nmovable data devices, encryption and system
        aUditing Ind monitoring.

        USClS'. respoose: USCIS concurs with this recommendation. The Office oflnlOrrnation
        Tecltnology (01T) has initiated the deployment of Public Key Infrastrocture(PKl) certificates
        agency-wide. The Chief Information Security Officer (CISO) is overseeing the implementation
        oftlle PKJ and the goal is to have certificates issued to 40% ofaU USCIS employees by
        September 2011 and the remaining 60% by September 2012. The PKI certificates integrate with
        the agency's e-mail systcrn so users can encrypt cmaiis and attachments. In the interim, users are
        instructed to password protect or encrypt attachments using WinZip. Instructions on the use of
        WinZip are posted on the agency's intranet.

        To ensure compliance with privacy standards when utilizing thumb drives, OIT is currently
        working on the fOllowing activities;

               Researching the capabilities of McAfee cPolicy Orchestrator and Windows 2007
               software to disable the use ofnon-authorized USB devices on the network.
               Working with the Office ofContraeting to develop a process to prevent the purcllase of
               non-autoorized thumb drives on Agency Purchasing Cards.
               Working on the identification and removal of all thumb drives that do not have
               encryption capability or do not comply with FIPS 140-2 encryption standards.
               Working with the Office ofAdministration's Asset Management Branch to ensure all
               govemmcnt purchased thumb drives are imprinted with a unique identification number
               and tracked in the Agency's Asset Management System.
               Participating on the DHS Efficiency Review Board to finalize the DHS Statement of
               Work (SOW) for the acquisition ofEncrypted USB DevicCi.
               Issuing a USCIS policy memorandum on the use of portable USB storage devices on the
               n"w,,,~




                                           • For Official Use Only·




                    U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                    Page 26
 

Appendix B
Management Comments to the Draft Report




                                            - For Official Use Only·

        USCIS Response to 010 Recommendations re        usas Prlvocy Steward3hip -     For Ojfu:i41 Use
        Only/GIG ProjeclNo. 10-U4-ITA-USaS
        Page 4


        On lanuary 25, 2011, the ClSO issued written guidance on the use ofponable storage devices.
        The ClSO's guidance provides inilrmation on properly tl1lnSpOning inimnaUon in electronic
        ilrm and instructs personnel to adhere to DHS MD 11047, "Proted.ion of Classified National
        Secvny lnilrmation Transmission am Transponation," and DHS MD 11042.1, "Safeguarding
        Sensitive But Unclassified (For Official Use Only) Inilrmation" when transporting sensitive
        inilrmation in paper i)rm.

        OIT is currently working on the illlowing activities cooccming the auditing and monitoring of
        USCI S inilrmation syst=

               nr.fting the USclS Audit and Accouutability MD; this policy will mandale the
               configuration of III USCIS inilrmation systems to record an user actions within the
               system. It will a!so require PD systems to connect to the enterprise audit hg comparison
               tooL The MD is scheduled to be released by Septeui:lc' 30. 2011.
               I~k:mcnting a network monitoring tool to integrate legacy inlOrmation systems with the
               entCl'prise audit log comparison tooL
               Conducting perilllnance testing on one of the ease management systems to ensure the
               use of the monitoring tools does not impede application perimnance..
               Identifying available storage k>cations tor ease management system's audit logs.

        Reeommendation #4: Enforce the ronsistent implementation of physlealsecurity standards.

        USCIS', re,pon~: USCIS OODCUfS with this reoommendation. USCIS employs physical
        security standards across the enterprise; the most recent achievement was the implementation of
        USCIS IHB 121-01-601, ''Facility Security Standards (FSS)" in lune 2010. Using the USCIS
        Physical S«urity Inspection Workbook (based on standards outlined in the FSS), OSI is
        assessing USCIS Headquarters (HQ) offices to determine if the building infrastructure and
        security COWltenneasures adequately protect USCIS personnel, property, and assets. USCIS will
        implement physical security countermeasures and policies based on each facility's Wlique
        operating environment. OSI will begin assessing field offices and service centers during the
        latler part of fiscal year 2011.

        In addition to assessing security countenneasures at field offices and serviee centers, OSI created
        the Electronic Security Systems (ESS) Nationwide Deployment Project in September 2010. ESS
        is an element ofOSI's Homeland security Presidential Directive 12 (HSPD-12) implementation
        plan and its primary lOcus is to updaIe USCIS access control systems to meet Federal
        Information Processing Standards (FlPS) 201 and HSPO-I2 standards. The ESS Project is a
        muhiyear strategy that will integrate, standardize and upgrade or replace many USCIS access
        control and ccrv systems nationwide.

        It is important to note that USCIS primarily occupies multi-tenant facilities nationwide. In a
        multi-tenant facility. a USCIS representative is a member of the Facility Security Committee
        (FSC). Each Fsc, which is made up of tenants in the facility, considers and makes decisions on


                                            - For Official Use Only-




                    U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                     Page 27
 

Appendix B
Management Comments to the Draft Report




                                             - For Official Usc Only.
        USCIS Response 10 DIG Recommendations III usas Privocy Stewt:lnhltip - For Official Use
        Only/GIG Project No. 1{}-/44-ITA.-USCIS
        PageS

        facility security ma!tC'ZS1O include physical ~mJ.ry conlrOl (into the faciJity- DOl into tenant
        wolbpace). COIllnlCl guard staffing, saeeoing procedures, and other facility security measures.
        Because USCIS resides in a variety of&cilities (e.g., multi-tmam, high-rise or muhi-story) with
        varying Facility Secutty Levels (FSLs) pbysical security couutermeasures and policies will vat)'
        between &cilitics.

        The subjecl report cites !be inconsistent application ofaccess control sysr.ems and other
        supplemcotllty security countermeasures that are used 10 miigale polmtial threats 10 personnel in
        areas where PI! is being uansported, bandied, or stored. Specifically, the report expands on the
        ilUowing:

            •   Recording LengIh of Closed-Circuit Television Tapes
            •   Adoquale ExlcmaI Security Lighling
            •   Adequate Applicalion ofPerimel:er Batriers
            •   Adjacc::nl Surface Parlting Distances
            •   Existence ofCottingmcy Plans

        As mentioDed, USCIS implements physical security countenne&SUfeS and policies based on each
        facility's unique openring environment---eacb. fociJity's urUque situation dictates the feasibility
        and availability ofsecurity countcnnc&5un:$.. For example, there arc three major l'aetOI'5 that play
        • role in the application of perimeter batricn:

           1) The availability ofreal estate 10 support the countermeasure. Fixed in-grolIDd boUards
              may oot be instaned in some areas because the ground is too fragile and unable to support
              the weigh! oftbe materials.
           2) Local city/municipality, county, or state planning conunissions may 001 allow the Federal
              government to place perimeter batriets around its facilities. Many local governments
              explain that baniers are oot aesthetically pleasing to the eye.
           3) USCIS receives security risk assessments from the Federal Protective Service (FPS) that
              idenlifY potential threats to the facility and its peI'5OMel and assets. Baniers are nOt
              installed ifit is detemtined that the level ofthreat 10 the agency does not warrant the
              installation ofthe countermeasure.

        Essentially, the FSS provides a minimum level of protection in its application of perimeter
        barriers at USCIS facilities; however, the level ofprotCdion can be customized once the risks
        have been identified and all parties (with decision making authority) agree that the risk does or
        docs not warrant the countermeasure.

        Lastly, another step toward standardization resides in the implementation ofwritten policy and
        procedures. OSI has a draft instructional handbook OHB) that promotes consistent access
        control policy and procedures al USCIS controlled space: USCIS lHB 121-01-632, USCIS
        Headquarters Access Control The USCIS HQ Access ControllHB will be disseminated 10



                                             - For Official Use Only·




                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                     Page 28
 

Appendix B
Management Comments to the Draft Report




                                            - For Official Use Only-
        USCIS Response to OIG Recommendations re USCIS Privacy Stewardship - For Official Use
        Only/GIG Project No. JQ-U4-ITA-USCIS
        Page 6

        stakeholders.for review and comment with a tentative implementation date of41h Quarter FYI!.
        Field offices will be advised to utilize the USCIS HQ Access Control IHB as a modeVtemplate to
        implement consistent access control policy across the enterprise with the understanding that
        some access control procedures/measures must be tailored specifically to their unique operating
        environment. This draft IHB will bridge the gap in overarching access control policy and
        procedures while awaiting DHS Department-wide access control policy

        Recommendation #5: Implement employee recommendations into plans fOf privacy
        training and awareness.

        USClS's response: uscrs concurs with this reconunendation. USCIS had previously taken
        some steps to implement employee recommendations into instructor-led training. These
        include: presenting real-world e;Qlmples ofcommon types ofPIUdata security breaches USCIS
        cJ;pcrienccs and how they were mitigated; clarifying USCIS policy on transmission ofPII via
        email (subsequently, as a result, the USCIS Privacy Officer issued additional guidance), and
        increasing the variety ofprivacy training utilizing multiple forms ofdelivery including
        computer-based, instructor-led (both in-person and via webinar), videos, and relying on the
        USCIS Office of Privacy's intranet web page. USCIS will continue to implement employee
        recommendationS into privacy training and awareness activities.

        In FY 2011 USCIS will deploy two new custom privacy awareness training modules which
        integrate multiple-choice, true/false, case studies, and scenario-based questions, and utilize the
        latest in training technology. AU USCIS employees and contractors will be required to complete
        the training annually. One training module is targeted to the general workforce and covers
        privacy fundamentals, DHSfUSCIS privacy policy, and other privacy requirements as mandated
        by the Privacy Act. Consistent with OMB Memorandum 07·16, ''Safeguarding Against and
        Responding to a Breach ofPersonally Identifiable Information", the second training module is
        targeted to USCIS system business owners, program and system managers, and others whose job
        responsibilities require more frequent access or use ofPII. USCIS will also develop a series of
        short one-minute training videos on privacy issues. These training videos will enable USCIS to
        increase the frequency ofprivacy training, implement more privacy awareness activities, and
        develop technologically enhanced methods oftraining. These training videos can also be
        designed to be job-specific as recommended. USCIS plans to launch these videos during Privacy
        Awareness Week. Additionally, OIT includes privacy awareness infonnation in their computer
        security awareness training activities. OIT's training emphasizes the USCIS Rules o.fBehavior
        which stipulate that all pmiOnnel must be able to identify PU and know the proper PH handling
        guidelines in accordance with the Office ofPrivacy's policies and procedures.

        While USCIS has made significant progress towards implementing employee reconunendations
        into privacy training and awareness-we plan to do more. Privacy Awareness Week is
        scheduled the week of April 4, 2011 and will include a variety ofguest speakers from the Federal
        privacy arena, opening and closing remarks from the USCIS Director and DHS ChiefPrivacy



                                            • For Official Use OnIy-




                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                    Page 29
 

Appendix B
Management Comments to the Draft Report




                                             - For Official Usc Only.

        USCIS Response to DIG Recommendations re USCIS Privacy $lewardship - For OffICial Use
        Only/DIG Project No. lo-I44-ITA.-USaS
        Page 7


        OfJker" and two dIoys of privacy training. along with awareness-building activities targeted 10
        USCIS employees and contl'adors.

        Recommendation 6: Establish a working group to develop a $Iandardiled procus to
        ensure that privacy tn.ining cbu~ are inserted and e.nfoKed iD contncts related to the
        bandl.i:ag or maullenlnce of penGnaUy Identlf'lIbk Information.

        USClS's response; USCIS concurs with this recommendation. USCIS established a working
        group in Novernbc" 2010 that consists of the Offices' ofPrivacy, ChiefCoW'ISC1 aDd Contracling
        to devebp the required contract clauses and to assess c:urrent contracts lOr modification.

        The working group has accomplished the IOlIowing:

               Finalized the necessary contract clauses that mandate PH training ilr conl1'aClOr
               personnel;
               Provided the SOWs ror all relevanl active contracts 10 the USCIS Privacy Officer fur
               review and determination on whether PH training is required;
               Idcotified a total of85 contracts requiring modification based on the SOW revlew by the
               USCIS Privacy Officer and detcnnination that PU Training should be required;
               Completed 7S coD1rllet modification and a remaining 10 rmdifications arc pending; and
               Instituted a mandatory review by the USCIS Privacy Officer on all new acquisitions
               >$ 100,000 to ensure future contract fully comply with privacy standards and training
               requirements.

        USCIS is finnly committed to ensuring it fulfills its obligation to acate and maintain a robust
        privacy program As DOted in the subject report, USCIS established its privacy office and
        designated a Privacy Officer in November 2007 to oversee and manage all aspects ofthe USCIS
        privacy program. The USCIS privacy office is committed to working with all ofthc
        organizations within USCIS to ensure we have a comprehensive privacy awareness program that
        includes proper oversight, management and training to ensure full compliance with federal
        policy and procedures.




                                            - For Official Use Only.




                    U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                    Page 30
 

Appendix C
Legislation, Memoranda, Directives, and Guidance Pertinent to the USCIS Privacy
Stewardship Audit

                                                   LEGISLATION

Privacy Act of 1974, 5 U.S.C. § 552a (2004). http://www.opm.gov/feddata/USC552a.txt

E-Government Act of 2002, Public Law 107-347, 116 STAT. 2899 (2002).
http://www.gpo.gov/fdsys/pkg/PLAW-107publ347/pdf/PLAW-107publ347.pdf

Federal Information Security Management Act of 2002, 44 U.S.C. § 3541, et seq. (2002).
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf

Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-53, 121 Stat. 266, 360 (2007).
http://www.nctc.gov/docs/ir-of-the-9-11-comm-act-of-2007.pdf

Immigration and Nationality Act, Public Law No. 111-306, 8 U.S.C. 1101 (2010).
http://www.uscis.gov/portal/site/uscis/menuitem.f6da51a2342135be7e9d7a10e0dc91a0/?vgnextoid=fa7e539dc4bed010V
gnVCM1000000ecd190aRCRD&vgnextchannel=fa7e539dc4bed010VgnVCM1000000ecd190aRCRD&CH=act

                                                OMB MEMORANDA

OMB M-02-01: Guidance for Preparing and Submitting Security Plans of Action and Milestones (October 17, 2001).
http://www.whitehouse.gov/omb/memoranda_m02-01

OMB M-07-16: Safeguarding Against and Responding to the Breach of Personally Identifiable Information (May 22,
2007). http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf

OMB M-10-15: FY 2010 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management (April 21, 2010). http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf

                                           DIRECTIVES AND GUIDANCE

DHS Memorandum: Designation of Component Privacy Officers (June 5, 2009). (No External Link Available)

DHS Privacy Office: Policy Guidance Memorandum Number 2007-01; DHS Privacy Policy Regarding Collection, Use,
Retention, and Dissemination of Information on Non-U.S. Persons (January 7, 2009).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2007-1.pdf

DHS Privacy Office: Policy Guidance Memorandum Number 2008-02; DHS Privacy Policy Regarding Privacy Impact
Assessments (December 30, 2008). http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-02.pdf

DHS Privacy Office: Handbook for Safeguarding Sensitive Personally Identifiable Information at the Department of
Homeland Security (October 31, 2008). http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_spii_handbook.pdf

DHS Privacy Office: Guide to Implementing Privacy (June 2010).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_implementation_guide_june2010.pdf

DHS Privacy Office: Privacy Incident Handling Guidance (September 10, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf

DHS Privacy Office: Privacy Technology Implementation Guide (August 16, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf

DHS Privacy Office: Privacy Impact Assessments Official Guidance (May 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_pia_guidance_may2007.pdf

DHS Privacy Office: Privacy Act Statement Guidance (April 2008).
http://dhsconnect.dhs.gov/uscis/org/PVY/Official%20Guidance/Privacy%20Act%20(E3)%20Statement%20Official%20Gui
dance.pdf

DHS Privacy Office: System of Records Notices Official Guidance (April 2008).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guidance_sorn.pdf

DHS 4300A: Sensitive Systems Handbook Version 7.1 (August 9, 2010). (No External Link Available)




                         U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                      Page 31 

Appendix C
Legislation, Memoranda, Directives, and Guidance Pertinent to the USCIS Privacy
Stewardship Audit
                                            DIRECTIVES AND GUIDANCE


National Institute of Standards and Technology Special Publication 800-12: An Introduction to Computer Security:
The NIST Handbook (October 1995). http://csrc.nist.gov/publications/nistpubs/800-12/handbook.pdf

National Institute of Standards and Technology Special Publication 800-21: 2nd Edition: Guideline for Implementing
Cryptography in the Federal Government (December 2005). http://csrc.nist.gov/publications/nistpubs/800-21-1/sp800-21­
1_Dec2005.pdf

National Institute of Standards and Technology Special Publication 800-32: Introduction to Public Key Technology
and the Federal PKI Infrastructure (February 26, 2001). http://csrc.nist.gov/publications/nistpubs/800-32/sp800-32.pdf

National Institute of Standards and Technology Special Publication 800-122: Guide to Protecting the Confidentiality
of Personally Identifiable Information (April 2010). http://csrc.nist.gov/publications/nistpubs/800-122/sp800-122.pdf.

USCIS Management Directive 140-001: Handling Sensitive and Non-Sensitive Personally Identifiable Information
(September 7, 2010). (No External Link Available)




                         U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                        Page 32 

Appendix D
Component Level Privacy Office Designation and Duties

                      COMPONENTS TO DESIGNATE PRIVACY OFFICERS

            �    U.S. Citizenship and Immigration Services
            �    Federal Emergency Management Agency
            �    National Protection and Programs Directorate
            �    Office of Intelligence and Analysis
            �    Science and Technology Directorate
            �    Transportation Security Administration
            �    United States Coast Guard
            �    U.S. Immigration and Customs Enforcement
            �    U.S. Customs and Border Protection
            �    United States Secret Service

                             COMPONENT PRIVACY OFFICER DUTIES


        Communicate the component privacy initiatives, both internally and externally.


        Monitor component's compliance with all federal privacy laws and regulations;
        implement corrective, remedial, and preventative actions; and notify the DHS
        Privacy Office of privacy issues or noncompliance when necessary.


        Implement and monitor privacy training for employees and contractors.


        Assist in drafting and reviewing Privacy Threshold Assessments (PTAs), Privacy
        Impact Assessments (PIAs), and Systems of Records Notices (SORNs), as well
        as any associated privacy compliance documentation.

        Serve as the point of contact to handle privacy incident response responsibilities
        as defined in the Privacy Incident Handling Guidance.

        Provide privacy information to the DHS Privacy Office for the quarterly Federal
        Information Security Management Act reporting, Section 803 of the Implementing
        Recommendations of the 9/11 Commission Act reporting, the DHS Privacy Office
        Annual Report, and other reporting requirements, as needed.
Source: DHS Memorandum, Designation of Component Privacy Officers, June 5, 2009.




                        U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                   Page 33 

             Appendix E
             USCIS Systems: Privacy Impact Assessments and System of Records Notices

            NAME AND PII COLLECTED                         PRIVACY IMPACT ASSESSMENT                SYSTEM OF RECORDS NOTICE
Immigration Benefits Background Check                  Immigration Benefits Background           DHS/USCIS-001 - Alien File (A-File)
Systems (IBBCS) collects biometric information         Check Systems (IBBCS),                    and Central Index System (CIS),
from petitioners who seek certain immigration          November 5, 2010                          October 31, 2008, 72 FR 1755
benefits. Applicants provide biometric information for                                           DHS/USCIS-002 - Background Check
the FBI Fingerprint Check and the Automated                                                      Service, June 5, 2007, 72 FR 31082
Biometric Identification System Fingerprint Check.                                               DHS/USCIS-003 - Biometric Storage
                                                                                                 System, April 6, 2007, 72 FR 1717
National File Tracking System (NFTS) collects and National File Tracking System (NFTS),          DHS/USCIS-001 - Alien File (A-File)
maintains PII pertaining to the applicant, system October 5, 2010                                and Central Index System (CIS),
user, and immigration file.                                                                      January 16, 2007, 72 FR 1755
Citizenship and Immigration Data Repository              Citizenship and Immigration Data     DHS/USCIS-012 - Citizenship and
(CIDR) collects PII directly from and about              Repository (CIDR), September 8, 2010 Immigration Data Repository (CIDR),
immigrants and nonimmigrants through applications                                             September 8, 2010, 75 FR 5464
and petitions for the purposes of adjudicating and
providing immigration benefits.
E-Verify Program: Use of Commercial Data for         E-Verify Program: Use of Commercial         DHS/USCIS-011 - E-Verify Program,
Employer Verification collects business information Data for Employer Verification,              May 19, 2010, 75 FR 28035
from employers and a commercial data provider, Dun June 2, 2010
and Bradstreet, to verify that registering companies
are genuine businesses.
Customer Identity Verification (CIV) System              Customer Identity Verification (CIV)    DHS/USCIS-001 - Alien File (A-File)
Update collects and uses PII when an applicant           System Update, April 26, 2010           and Central Index System (CIS),
appears before USCIS in person at the time of an                                                 January 16, 2007, 72 FR 1755
interview so that USCIS can verify that the individual                                           DHS/USVISIT-0012 - DHS Automated
being interviewed is the same person for whom it                                                 Biometric Identification System
conducted a background check.                                                                    (IDENT), June 5, 2007, 72 FR 31080
Eligibility Risk and Fraud Assessment Testing            Eligibility Risk and Fraud Assessment   DHS/USCIS-001 - Alien File (A-File)
Environment (EFRA) uses synthetic data from              Testing Environment (EFRA),             and Central Index System (CIS),
different datasets in Treasury Enforcement               April 9, 2010                           January 16, 2007, 72 FR 1755
Communications System.                                                                           DHS/USCIS-007 - Benefits Information
                                                                                                 System, September 29, 2008, 73 FR
                                                                                                 56596
                                                                                                 DHS/USCIS-010 - Asylum Information
                                                                                                 and Pre-Screening, January 5, 2010,
                                                                                                 75 FR 409
Background Vetting Service (BVS) facilitates          Background Vetting Service (BVS),          DHS/USCIS-005 - Inter-Country
fingerprint checks of U.S. citizens, whose principal  March 22, 2010                             Adoptions Security, June 5, 2007, 72
residence is overseas, and who is filing family-based                                            FR 31086
immigration petitions at Department of State                                                     DHS/USCIS-007 - Benefits Information
Overseas Posts.                                                                                  System, September 29, 2008, 73 FR
                                                                                                 56596
Refugees, Asylum, and Parole System and the              Refugees, Asylum, and Parole System DHS/USCIS-010 - Asylum Information
Asylum Pre-Screening System collects PII from            and the Asylum Pre-Screening System, and Pre-Screening, January 5, 2010,
asylum applicants and applicants for benefits            November 24, 2009                    75 FR 409
provided by Section 203 of the Nicaraguan
Adjustment and Central American Relief Act
(NACARA § 203).
Travel and Employment Authorization Listings             Travel and Employment Authorization     DHS/USCIS-007 - Benefits Information
(TEAL) collects applicant’s PII for determining          Listings (TEAL), November 3, 2009       System, September 29, 2008, 73 FR
benefit eligibility.                                                                             56596
USCIS Customer Relationship Interface System       USCIS Customer Relationship                   DHS/USCIS-007 - Benefits Information
(CRIS) Update receives PII from customers over the Interface System (CRIS) Update,               System, September 29, 2008, 73 FR
internet or over the phone.                        September 22, 2009                            56596




                                      U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                                  Page 34
 

             Appendix E
             USCIS Systems: Privacy Impact Assessments and System of Records Notices

           NAME AND PII COLLECTED                         PRIVACY IMPACT ASSESSMENT                SYSTEM OF RECORDS NOTICE
Reengineered Naturalization Casework System             Reengineered Naturalization Casework DHS/USCIS-007 - Benefits Information
(RNACS) collects applicant’s PII at a USCIS             System (RNACS), August 24, 2009      System, September 29, 2008, 73 FR
Application Support Center (ASC) to conduct                                                  565966596
background checks.
Electronic Filing System (e-Filing) collects PII from Electronic Filing System (e-Filing),      DHS/USCIS-007 - Benefits Information
applicants based on the specific form(s) selected     August 24, 2009                           System, September 29, 2008, 73 FR
from a menu of available applications.                                                          56596
Enterprise Citizenship and Immigrations Services        Enterprise Citizenship and              DHS/USCIS-001 - Alien File (A-File)
Centralized Operational Repository (eCISCOR)            Immigrations Services Centralized       and Central Index System (CIS),
replicates the PII to consolidate the data and          Operational Repository (eCISCOR),       January 16, 2007, 72 FR 1755
streamline the process for reporting and information    August 24, 2009                         DHS/USCIS-007 - Benefits Information
sharing initiatives.                                                                            System, September 29, 2008, 73 FR
                                                                                                56596
Compliance Tracking and Management System             Compliance Tracking and Management DHS/USCIS-009 - Compliance
(CTMS) contains PII on four categories of individuals System (CTMS), May 22, 2009        Tracking and Monitoring System, May
(any of whom may be either U.S. citizens or non-U.S.                                     22, 2009, 74 FR 24022
citizens): Verification Subjects, E-Verify or
Systematic Alien Verification for Entitlements
Program Users, Complainants, and DHS Employees.
Correspondence Handling and Management                  Correspondence Handling and             DHS/USCIS-007 - Benefits Information
Planning System (CHAMPS) collects and uses PII          Management Planning System              System, September 29, 2008, 73 FR
to process N-400, N-600, and N-565 applications.        (CHAMPS), January 13, 2008              56596
Changes to Requirements Affecting H-2A                  Changes to Requirements Affecting       DHS/USCIS-007 - Benefits Information
Nonimmigrants and Changes to Requirements               H-2A Nonimmigrants and Changes to       System, September 29, 2008, 73 FR
Affecting H-2B Nonimmigrants and Employers              Requirements Affecting H-2B             56596
Final Rules collects PII from employers who may         Nonimmigrants and Employers Final
collect information from the nonimmigrant workers       Rules, December 18, 2008
regarding H-2A and H-2B petitions.
Scheduling and Notification of Applicants for      Scheduling and Notification of               DHS/USCIS-007 - Benefits Information
Processing (SNAP) collects and stores PII provided Applicants for Processing (SNAP),            System, September 29, 2008, 73 FR
at the time the USCIS Service Center/National      December 15, 2008                            56596
Benefits Center schedules the appointment.
Verification Information System Update collects         Verification Information System         DHS/USCIS-004 - Verification
and verifies U.S. Passport and Passport Card data,      Update, November 20, 2008               Information System, December 11,
which when required for secondary verification                                                  2008, 73 FR 75445
purposes may include photographs from employees
who present a U.S. Passport or Passport Card as a
Form I-9 List A document to an E-Verify participating
employer.
USCIS Person Centric Query Service Supporting           USCIS Person Centric Query Service      DHS/USCIS-003 - Biometric Storage
Visa Benefit Adjudicators, Visa Fraud Officers,         Supporting Visa Benefit Adjudicators,   System, April 6, 2007, 72 FR 17172
and Consular Officers of the Department of State,       Visa Fraud Officers, and Consular       DHS/USCIS-007 - Benefits Information
Bureau of Consular Affairs allows users to submit       Officers of the Department of State,    System, September 29, 2008, 73 FR
a single query for all transactions involving an        Bureau of Consular Affairs,             56596
immigrant across a number of systems, and returns       November 5, 2008                        DHS/USCIS-001 - Alien File (A-File)
a consolidated and correlated view of the immigrant’s                                           and Central Index System (CIS),
past interactions with the government as he or she                                              January 16, 2007, 72 FR 1755
passed through the U.S. immigration system.
Alien Change of Address Card (AR-11) contains           Alien Change of Address Card            DHS/USCIS-007 - Benefits Information
PII submitted by customers whose addresses have         (AR-11), October 21, 2008               System, September 29, 2008, 73 FR
changed during their stay in the United States.                                                 56596
DHS/UKvisas Project collects biometrics from           DHS/UKvisas Project,                     No System of Records listed.
applicants at the time of biometric capture at an ASC. November 14, 2007




                                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                                 Page 35
 

              Appendix E
              USCIS Systems: Privacy Impact Assessments and System of Records Notices

            NAME AND PII COLLECTED                         PRIVACY IMPACT ASSESSMENT                SYSTEM OF RECORDS NOTICE
USCIS Microfilm Digitization Application System USCIS Microfilm Digitization                     DHS/USCIS-001 - Alien File (A-File)
(MiDAS) contains approximately 85 million historic    Application System (MiDAS),                and Central Index System (CIS),
digitally indexed immigration-related records that    September 15, 2008                         January 16, 2007, 72 FR 1755
were previously stored on microfilm. The objective of
MiDAS is to enable USCIS personnel to search,
retrieve, and deliver PII about individuals contained
in USCIS records based on requests received from
customers, such as federal, state, and local
government agencies and the public.
USCIS Benefits Processing of Applicants other            USCIS Benefits Processing of            DHS/USCIS-007 - Benefits Information
than Petitions for Naturalization, Refugee Status,       Applicants other than Petitions for     System, September 29, 2008, 73 FR
and Asylum (CLAIMS 3) contains data entered from         Naturalization, Refugee Status, and     56596
all CIS customer immigration application forms and       Asylum (CLAIMS 3),
petitions except naturalization, refugees and asylum.    September 5, 2008
USCIS Computer Linked Application Information            USCIS Computer Linked Application       DHS/USCIS-007 - Benefits Information
Management System (CLAIMS 4) contains data               Information Management System           System, September 29, 2008, 73 FR
entered from the N-400, Application for                  (CLAIMS 4), September 5, 2008           56596
Naturalization, as well as data generated by DHS or
the FBI.
USCIS Fraud Detection and National Security              USCIS Fraud Detection and National      DHS/USCIS-006 - Fraud Detection and
Data System (FDNS-DS) contains PII collected             Security Data System (FDNS-DS),         National Security Data System (FDNS­
throughout the following processes: administrative       July 29, 2008                           DS), August 18, 2008, 73 FR 48231
investigations, fraud investigations, adjudication
processes, and benefit fraud assessments.
USCIS Secure Information Management Service              USCIS Secure Information                DHS/USCIS-005 - Inter-Country
(SIMS) Pilot with Inter-Country Adoptions Update         Management Service (SIMS) Pilot with    Adoptions Security, June 5, 2007,
collects and shares PII regarding adoptions with         Inter-Country Adoptions Update,         72 FR 31086
Department of State.                                     August 13, 2008
USCIS Central Index System (CIS) collects PII            USCIS Central Index System (CIS),       DHS/USCIS-001 - Alien File (A-File)
directly from the individual requesting benefits under   June 22, 2007                           and Central Index System (CIS),
the Immigration and Nationality Act.                                                             January 16, 2007, 72 FR 1755
USCIS Enterprise Service Bus (ESB) collects           USCIS Enterprise Service Bus (ESB),        DHS/ALL-004 - General Information
operational data used for authentication,             June 22, 2007                              Technology Access Account Records
authorization, and determination of permissions for a                                            System (GITAARS), September 29,
user or system connecting to a deployed service.                                                 2009, 74 FR 49882
USCIS Biometric Storage System (BSS) collects        USCIS Biometric Storage System              DHS/USCIS-003 - Biometric Storage
biometric and associated biographic data provided at (BSS), March 28, 2007                       System, April 6, 2007, 72 FR 17172
the time of biometric capture at an ASC.
USCIS Naturalization Redesign Test Pilot (NRTP)          USCIS Naturalization Redesign Test      DHS/USCIS-001 - Alien File (A-File)
collects PII from all people interviewed for             Pilot (NRTP), January 12, 2007          and Central Index System (CIS),
naturalization at 10 USCIS district offices with                                                 January 16, 2007, 72 FR 1755
appointments from approximately February 15, 2007                                                DHS/USCIS-007 - Benefits Information
through May 15, 2007.                                                                            System, September 29, 2008, 73 FR
                                                                                                 56596
Migrant Information Tracking System (MITS)               Migrant Information Tracking System     No System of Records listed.
collects biographic information from the migrant, to     (MITS), February 3, 2011
include name, date of birth, address, gender, marital
status, race, and occupation.
Integrated Digitization Document Management             Integrated Digitization Document         DHS/USCIS-001 - Alien File (A-File)
Program (IDDMP) does not collect new data directly Management Program (IDDMP),                   and Central Index System (CIS),
from individuals; rather IDDMP digitizes the hardcopy January 5, 2007                            January 16, 2007, 72 FR 1755
A-File data collected originally from or on individuals
covered by provisions of the Immigration and
Nationality Act.



                                      U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                                  Page 36
 

              Appendix E
              USCIS Systems: Privacy Impact Assessments and System of Records Notices

            NAME AND PII COLLECTED                           PRIVACY IMPACT ASSESSMENT                SYSTEM OF RECORDS NOTICE
H-1B Visa Cap Registration requires the following          H-1B Visa Cap Registration,             No System of Records listed.
PII from petitioners and beneficiaries: name,              January 28, 2011
employer identification number, contact information,
date of birth, country of birth, country of citizenship,
gender, passport number, and any additional
information requested by the registration or USCIS.
E-Verify Self Check collects the individual’s name,      E-Verify Self Check, March 4, 2011 DHS/USCIS-013 - E-Verify Self Check,
address of residence, date of birth, and optionally,                                        February 16, 2011, 76 FR 9034
the individual’s Social Security number. Based on
citizenship status and the document chosen to
present for work authorization, the system collects
additional information that can include: citizenship
status, Alien Number (if noncitizen), passport
number, Form I-94 number, lawful permanent
resident card, or work authorization document
number.
               Source: The DHS Privacy Office has USCIS Privacy Impact Assessments and System of Records Notices at
               http://www.dhs.gov/files/publications/gc_1279308495679.shtm#content (accessed May 6, 2011).




                                        U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                                   Page 37 

Appendix F
OIG Privacy Culture Survey

OIG developed a privacy survey with involvement of the USCIS Office of Privacy. The
purposes of the survey were to assess the level of workforce understanding of privacy and
to obtain recommendations for improvements, based on the criteria in Appendix C.

In July 2010, OIG emailed a link to the USCIS workforce to complete the online privacy
survey on a secure site. Survey participation was voluntary, confidential, and accessible
only by OIG. The results of the survey were useful because they provided insights into
areas in which improvements are needed. The following chart shows the levels of job
responsibility, location, and lengths of services for respondents who either completed the
survey or provided selected responses.

                     DEMOGRAPHICS OF PARTICIPANTS
                           Level of Job Responsibility
                          Entry-level employees (14.4%)
               Mid to high-level (non-manager) employees (66.2%)
                          Supervisors/managers (19.4%)
                                      Location
                              Headquarters (17.8%)
                             Field - Northeast (23.1%)
                             Field - Southeast (9.4%)
                              Field - Central (27.3%)
                               Field - West (22.4%)
                                Length of Service
                            Less than 3 months (1.5%)
                               3–12 months (4.8%)
                                 1–3 years (25.3%)
                            More than 3 years (68.4%)
Source: OIG Privacy Culture Survey

Of the total 6,915 respondents, 81% (5,602) completed the survey and 19% (1,313)
provided selected responses. The completed survey response rate of federal employees was
54% (5,602 of 10,367). We received 3,497 written comments by survey respondents,
2,179 of whom (62%) recommended improvements to privacy training and awareness and
1,318 of whom (38%) commented on the lack of privacy protections in their daily work.

Respondents recommended the following improvements to privacy training and
awareness 1) increase the frequency of privacy training (382 or 17%), 2) embed privacy
into standard operating procedures (340 or 16%), 3) implement more privacy awareness
activities (269 or 12%), 4) develop more training that incorporates privacy on-the-job
(268 or 12%), 5) develop technologically enhanced methods of training (257 or 12%), 6)
provide more in-person or live instructor-based training (209 or 10%), 7) integrate more
real-world examples in training (201 or 9%), 8) provide more staff briefings on privacy
(130 or 6%), and 9) increase opportunities for peer discussion and supervisory mentoring
on privacy (123 or 6%). The following chart shows the improvements that survey
respondents recommended.




                     U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                Page 38 

Appendix F
OIG Privacy Culture Survey

                                                                  Increase the frequency of privacy
                                                                  training: 382 or 17%

                                                                  Embed privacy into standard operating
                        6%
                                                                  procedures (SOPs): 340 or 16%
               6%                         17%
                                                                  Implement more privacy awareness
                                                                  activities: 269 or 12%
         9%
                                                                  Develop more training that incorporates
                                                                  privacy on-the-job: 268 or 12%

                                                                  Develop technologically enhanced
                                                      16%         methods of training: 257 or 12%
   10%
                                                                  Provide more in-person/live instructor-
                                                                  based training: 209 or 10%

                                                                  Integrate more real-world examples in
                                                                  training: 201 or 9%
         12%
                                             12%                  Provide more staff briefing on privacy:
                                                                  130 or 6%
                         12%
                                                                  Increase opportunities for peer
                                                                  discussion/supervisory mentoring on
                                                                  privacy: 123 or 6%

Source: OIG Privacy Culture Survey, written comments, N = 3,497.




                      U.S. Citizenship and Immigration Services Privacy Stewardship 


                                                 Page 39 

Appendix G
Major Contributors to this Report

                    System Privacy Division

                    Marj P. Leaming, Director
                    Eun Suk Lee, Lead Privacy Auditor
                    Pamela J. Chambliss-Williams, Senior Program Analyst
                    Hung Huynh, Privacy Specialist
                    Kevin Mullinix, Management and Program Assistant
                    Steven Tseng, Management and Program Assistant

                    Craig Adelman, Referencer




                 U.S. Citizenship and Immigration Services Privacy Stewardship 


                                            Page 40 

Appendix H
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director of USCIS
                      DHS Privacy Office
                      USCIS Audit Liaison Office
                      USCIS Office of Privacy

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 U.S. Citizenship and Immigration Services Privacy Stewardship 


                                            Page 41
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
